APPENDIX

TABLE OF CONTENTS
Appendix A:
Appendix B:
Appendix C:

Supreme Court Order (Aug. 20,
2019) ........................................... 1a
Appellate Opinion Granting
Dismissal (Jun. 3, 2019) ............ 2a
District Court Order Granting
Dismissal (Jul. 12, 2018) ......... 29a

1a

APPENDIX A
State of Minnesota
In Supreme Court
A18-1488
Streambend Properties II, LLC, et. al.,
Petitioners
vs.
Ivy Tower Minneapolis LLC, et. al., Respondents,
Wischermann Holdings LLC, et. al., Respondents,
Commonwealth Land Title Insurance Company,
Respondents,
ORDER
Based upon all the files, records and proceedings
herein,
IT IS HEREBY ORDERED that the petition of
Jerald Hammann for further review be, and the
same is, denied.
Dated: August 20, 2019

BY THE COURT:
/s/ Lorie S. Gildea
Lorie S. Gildea
Chief Judge

2a

APPENDIX B

STATE OF MINNESOTA
IN COURT OF APPEALS
A18-1488
Streambend Properties II, LLC, et al.,
Appellants,
vs.
Ivy Tower Minneapolis LLC, et al. Respondents,
Wischermann Holdings, LLC, et al., Respondents,
Commonwealth Land Title Insurance Company,
LLC, Respondent.
Filed June 3, 2019
Affirmed motion denied
Schellhas, Judge
Hennepin County District Court File No. 27-CV17-18938
Rachel K. Nelson, Law Offices of Rachel K.
Nelson, PLLC, St. Paul, Minnesota (for appellants)

3a
Kerry A. Trapp, Borgelt, Powell, Peterson &
Frauen, S.C., Oakdale, Minnesota (for respondent
Commonwealth Land Title Insurance Company)
Thomas W. Pahl, Jamae A. Pennings, Foley &
Mansfield, PLLP, Minneapolis, Minnesota (for
respondents Ivy Tower Minneapolis, LLC, et al.)
D. Charles MacDonald, Faegre Baker Daniels,
LLP, Minneapolis, Minnesota (for respondents
Wischermann Holdings, LLC, et al.)
Considered and decided by Slieter, Presiding
Judge; Worke, Judge; and Schellhas, Judge.
UNPUBLISHED OPINION
SCHELLHAS, Judge
Appellants challenge the rule 12.02(e) dismissal
of their claims related to their condominium
purchase agreements, and move to strike portions of
respondents’ briefs. We affirm and deny the motion
to strike.
FACTS
This appeal arises out of the Ivy Tower
condominium development in Minneapolis. On
October 23, 2004, on behalf of appellant Streambend
Properties II, LLC (Streambend II), appellant Jerald
Hammann1 entered into a purchase agreement with

Hammann is a frequent litigator in Minnesota state and
federal courts. A Minnesota district court has previously
determined Hammann to be a “frivolous litigant.” Hammann v.
1

4a
respondent Ivy Tower Minneapolis, LLC (Ivy Tower),
for a to-be-constructed condominium unit in Ivy
Tower. On October 24, on behalf of appellant
Streambend Properties VIII, LLC, (Streambend
VIII), Hammann’s sister entered into a similar
purchase agreement with Ivy Tower for a to-beconstructed Ivy Tower condominium. But Hammann
did not file articles of organization for Streambend II
until October 29, 2004, and he did not file articles of
organization for Streambend VIII until November 2,
2004. (Hammann, Streambend II, and Streambend
VIII are collectively referred to as “appellants.”)
Appellants paid earnest money on each purchase
agreement for deposit in a trust account maintained
by respondent
Commonwealth Land Title Insurance Company,
LLC (Commonwealth) to cover construction costs. In
November 2007, through amended purchase
agreements and the payment of additional earnest
money, appellants requested construction upgrades.
As alleged in their complaint in paragraphs 199,
201, 203, by letters on March 13, April 6, and April
16, 2009, appellants requested return of their
earnest money.2 In response, Ivy Tower cancelled
appellants’ purchase agreements on April 23, 2009,
by service of two separate notices of declaratory
cancellation under Minn. Stat. § 559.217, subd. 4
(cancellation notices). Ivy Tower stated in the
cancellation notices that appellants defaulted under
Donald Deyo, No. A08-2185, 2010 WL 154212, at *8 (Minn. App.
Jan. 19, 2010), review denied (Minn. Mar. 30, 2010).
2 None of these letters is included in an attachment to
appellants’ complaint.

5a
the terms of specific provisions in the purchase
agreements, including, but not limited to, the
following defaults: (1) “Buyer[s] never intended to
reside at the property” in violation of paragraph 17;
(2) “During Year 2007, Buyer signed several upgrade
addendums . . . intentionally causing Seller
damages” in violation of paragraph 5; and (3)
“Buyer[s] never applied for financing” in violation of
paragraph 4. The cancellation notices provided that
unless appellants, within the 15-day notice period,
secured a court order suspending cancellation,
cancellation of the purchase agreements would be
final at the end of the notice period. The cancellation
notices also warned appellants that upon final
cancellation, under Minn. Stat. § 559.217, they
would “lose all earnest money . . . paid on the
purchase agreement” and “may lose [their] right to
assert any claims for defenses that [they] might
have.”
During their 15-day notice period, appellants
neither sought nor obtained a court order
suspending cancellation of their purchase
agreements. Instead, in October 2010, appellants
sued various parties in federal district court,
including many of the respondents in this action. In
the 11-count complaint, appellants sought the return
of earnest money, claimed damages under the
Interstate Land Sales Full Disclosure Act (ILSA) and
the Minnesota Common Interest Ownership Act
(MCIOA), and asserted claims for fraud, declaratory
judgment, wrongful cancellation, breach of contract,
unjust enrichment, conversion of trust-account
funds, negligent misrepresentation, and breach of
fiduciary duty. The federal court dismissed
appellants’ ILSA claims for failing to plead the

6a
requirements of an ISLA claim, declined to exercise
supplemental jurisdiction over appellants’ state law
claims, and dismissed the remaining state-law
claims without prejudice. Streambend Props. II, LLC
v. Ivy Tower Minneapolis, LLC, Civ. No. 10-4257
(JNE/AJB), 2011 WL 1447579, at *1–2 (D. Minn.
Apr. 14, 2011). The Eighth Circuit Court of Appeals
reversed the dismissal of appellants’ ILSA claims
and remanded for “further proceedings.” Streambend
Props. II, LLC v. Ivy Tower Minneapolis, LLC, 451
Fed. App’x 627, 627–28 (8th Cir. 2012).
On remand, appellants filed a first and second
amended complaint. Streambend Props. II, LLC v.
Ivy Tower Minneapolis, LLC, Civ. No. 10-4257
(JNE/AJB), 2013 WL 3465277, at *1 (D. Minn. July
10, 2013). The second amended complaint alleged
the same claims, including violations of ILSA and
MCIOA, as well as claims for wrongful cancellation,
breach of contract, unjust enrichment, conversion,
breach of fiduciary duty, and negligent
misrepresentation. Id. Appellants later sought to add
respondents Wischermann Partners, Inc. and Paul
Wischermann as defendants under the same
theories. Streambend Props. II, LLC v. Ivy Tower
Minneapolis, 781 F.3d 1003, 1009 (8th Cir. 2015).
The federal district court concluded that this
amendment was “futile” because appellants had “not
adequately pleaded any theory under which
Wischermann Partners, Inc. or Paul Wischermann
could be liable merely by their association with
respondent Wischermann Holdings, LLC.”3 Id. at
1015. The court also struck the ILSA claims with
3 Wischermann Partners, Inc. and Paul Wischermann will
hereinafter be collectively referred to as “Wischermann.”
3

7a
prejudice for failure to plead fraud with the required
particularity, and the court dismissed the state-law
claims without prejudice, declining to exercise
jurisdiction over them. Id. at 1009–10. The court
affirmed a magistrate’s denial of appellants’ motions
for leave to file a third and fourth amended
complaint. Id. at 1009.
On March 30, 2015, the Eighth Circuit Court of
Appeals affirmed the dismissal of appellants’ ILSA
claims and the federal district court’s denial of
appellants’ motion for leave to add Wischermann as
parties. Id. at 1017. In the meantime, the Eighth
Circuit Court of Appeals summarily affirmed, in an
unpublished order, a federal district court’s denial of
Hammann’s motion to join or take the place of the
Streambend II as plaintiff. Streambend Props. II,
LLC v. Ivy Tower Minneapolis, LLC, 701 Fed. App’x
544, 544 (8th Cir. 2017). The Eighth Circuit Court of
Appeals also affirmed the denial of subsequent
motions by Hammann for substitution of parties and
relief from judgment. Id. at 545. And appellants filed
three petitions for a writ of certiorari, which were
denied in 2015, 2016, and 2018, respectively.
Streambend Props. II, LLC v. Ivy Tower
Minneapolis, LLC, 136 S. Ct. 287 (2015);
Streambend Props. II, LLC v. Ivy Tower
Minneapolis, LLC, 137 S. Ct 262 (2016); Streambend
Props. II, LLC v. Ivy Tower Minneapolis, LLC, 139
S. Ct. 126 (2018).
In December 2017, appellants filed in state court,
a ten-count, 68-page complaint, plus 100 pages of
attached exhibits, against Ivy Tower, respondents
Ivy Tower Development, LLC; Moody Group, LLC;
Goben Enterprises, LP; Jeffrey Laux; Gary Benson,

8a
Wischermann, and Commonwealth, seeking return
of their earnest money and alleging damages under
the MCIOA. Appellants also sought damages for
wrongful cancellation, breach of contract, unjust
enrichment, a declaratory judgment, conversion,
violation of Minn. Stat. § 82.75, negligent
misrepresentation, and breach of fiduciary duty.
Respondents moved to dismiss all counts of
appellants’ complaint under Minn. R. Civ. P.
12.02(e). The district court concluded that all counts
of appellants’ complaint “are either barred by claim
and issue preclusion, time barred, or fail to state a
claim upon which relief can be granted,” and that
appellants failed to plead their claim of negligent
misrepresentation with particularity under Minn. R.
Civ. P. 9.02. The court granted respondents’ motions,
dismissed all of appellants’ claims with prejudice,
and denied appellants leave to file a motion for
reconsideration.
This appeal follows.
DECISION
I. Appellants’ motion to strike
Shortly before oral arguments, appellants filed a
motion to strike “portions” of Ivy Tower’s and
Wischermann’s briefs under rule Minn. R. Civ. App.
P. 128.02, subd. 1(c), which provides that the
statement of the case and the facts contained in the
formal brief “must be stated fairly, with complete
candor, and as concisely as possible.” In their
motion, appellants dispute the “fairness” and
“candor” of respondents’ characterization of the
letters sent by appellants in March and April 2009,

9a
which appellants now claim in their motion to strike
cancelled the purchase agreements. But the rules of
appellate procedure provide that “[n]o further briefs
may be filed except with leave of the appellate
court.” Minn. R. Civ. App. P. 128.02, subd. 5. As
asserted in the response by Wischermann,
“[a]ppellants’ motion is argument masquerading as a
motion to strike.” Because appellants’ motion is
essentially additional briefing without leave of this
court, we deny the motion to strike.
II. Dismissal of appellants’ claims under
Minn. R. Civ. P. 12.02(e)
Appellants challenge the district court’s dismissal
of all of their claims under Minn. R. Civ. P. 12.02(e)
against (A) “Developers,” and (B) Commonwealth.4 A
district court may dismiss a complaint when a
plaintiff fails to state a claim upon which relief can
be granted. Minn. R. Civ. P. 12.02(e). On appeal from
such a dismissal, this court reviews de novo whether
the complaint sets forth a sufficient claim for relief.
Walsh v. U.S. Bank, N.A., 851 N.W.2d 598, 606
(Minn. 2014). We accept the facts alleged in the
complaint as true and draw inferences in favor of the
nonmoving party. Id. And “a court may consider
documents referenced in a complaint without
converting the motion to dismiss to one for summary
judgment.” N. States Power Co. v. Minn. Metro.
Council, 684 N.W.2d 485, 490 (Minn. 2004)
(emphasis omitted).

Appellants’ complaint refers to all of the respondents,
except Commonwealth, as “Developers,” and we do also.
4

10a
A. Claims against Developers
Appellants asserted claims against some or all of
the Developers for (1) violation of the MCIOA; (2)
wrongful cancellation; (3) breach of contract; (4)
unjust enrichment; (5) declaratory judgment; (6)
conversion; and (7) negligent misrepresentation.
These claims against Developers stem from the
purchase agreements that were entered into between
Streambend II and VIII and Ivy Tower “on behalf of”
the other Developers. But Minnesota law does not
recognize the de facto corporation doctrine. See
Stone v. Jetmar Props., LLC, 733 N.W.2d 480, 485
(Minn. App. 2007) (recognizing that the de facto
corporation doctrine is not “viable in the context of
business corporations”). The district court therefore
determined that “[b]ecause the Streambend entities
were not yet formed at the time the purchase
agreements were signed, the agreements are void
and unenforceable and any claims for damages
flowing from those agreements are without merit.”
Appellants argue that the district court’s decision
is erroneous because, after their formation,
Streambend II and VIII adopted the purchase
agreements through various amendments to the
purchase agreements, including upgrade options and
payment of additional earnest money. Indeed, “a
voidable contract can be ratified or confirmed.”
Logan v. Panuska, 293 N.W.2d 359, 362 (Minn.
1980). But here, assuming, without deciding, that
Streambend II and VIII ratified the purchase
agreements through their amendments, the record
clearly shows that Ivy Tower later cancelled the
purchase agreements under Minn. Stat. § 559.217,
subd. 4.

11a
Minnesota Statute section 559.217, subdivision 4
(2018), provides:
(a) If an unfulfilled condition exists after
the date specified for fulfillment in the terms
of the purchase agreement for the
conveyance of residential real property,
which by the terms of the purchase
agreement cancels the purchase agreement,
either the purchaser or the seller may
confirm the cancellation by serving upon the
other party to the purchase agreement and
any third party that is holding earnest
money under the purchase agreement a
notice:
(1) specifying the residential real property
that is the subject of the purchase
agreement, including the legal description;
(2) specifying the purchase agreement by
date and the names of parties, and the
unfulfilled condition; and
(3) stating that the purchase agreement
has been cancelled.
... .
(c) The cancellation of the purchase
agreement is complete, unless within 15 days
after the service of the notice upon the other
party to the purchase agreement, the party
upon whom the notice was served secures
from a court an order suspending the
cancellation.

12a
Subdivision 7(a) of section 559.217 provides that:
After a cancellation under . . . subdivision
4, the purchase agreement is void and of no
further force or effect, and, except as
provided in subdivision 2, any earnest money
held under the purchase agreement must be
distributed to, and become the sole property
of, the party completing the cancellation of
the purchase agreement.
Minn. Stat. § 559.217, subd. 7(a) (2018).
Our supreme court has long recognized the
finality of statutory cancellation. See Olson v. N.
Pac. Ry. Co., 148 N.W. 67, 68 (Minn. 1914) (holding
that contract vendee attempting to sue for damages
caused by vendor’s misrepresentations “has no
contract upon which to predicate damages” after
cancellation of the contract for deed has occurred).
Once statutory notice has been served and
cancellation effected, all rights under a contract for
deed are terminated. In re Butler, 552 N.W.2d 226,
230 (Minn. 1996); West v. Walker, 231 N.W. 826, 827
(Minn. 1930); Olson, 148 N.W. at 68. This rule,
known as the Olson rule, “applies to cancelled
purchase agreements.” 25 Eileen M. Roberts,
Minnesota Practice, § 6.21 (2018-2019 ed. 2018); see
Romain v. Pebble Creek Partners, 310 N.W.2d 118,
122–23 (Minn. 1981) (holding that finality of
statutory cancellation applies to purchase
agreements except where purchase agreement was
not finally binding on both parties in all its essential
terms; agreement was nullified pursuant to its own
terms because parties failed to reach agreement on
security for note upon which completion of contract

13a
was contingent). But the Olson rule is not applicable
to claims against a party who is not a party to a
purchase agreement. See Doerr v. Clayson, 375
N.W.2d 488, 491 (Minn. 1985) (noting that “the
cancellation of the contract for deed had no effect on
the real estate agents because they were not parties
to the contract”).
Here, Commonwealth was not a party to the
purchase agreements with appellants, and
appellants have not asserted anything to the
contrary. As such, the Olson rule is not applicable to
Commonwealth. But appellants have asserted in
their complaint that Ivy Tower entered into the
purchase agreements “on behalf of” the other
Developers. Consequently, appellants’ complaint
treats the Developers as parties to the purchase
agreements and, for purposes of our rule 12.02(e)
analysis, we are required to accept the allegations in
appellants’ complaint as true. See Bodah v. Lakeville
Motors Express, Inc., 663 N.W.2d 550, 553 (Minn.
2003) (stating that in reviewing a rule 12.02 motion
to dismiss, the reviewing court accepts the facts
alleged in the complaint as true). Because, in their
complaint, appellants treat the Developers as parties
to the purchase agreement, and because we are
required to accept the allegations in appellants’
complaint as true, we apply the Olson rule to the
Developers, which is defined in footnote 4 of the
complaint to exclude Commonwealth. But see Doerr,
375 N.W.2d at 491 (noting that “the cancellation of
the contract for deed had no effect on the real estate
agents because they were not parties to the
contract”).

14a
As noted above, “[o]n behalf of” Developers, Ivy
Tower served appellants with notices of cancellation
of their purchase agreements under Minn. Stat. §
559.217, subd. 4. Appellants failed to seek an order
within the 15-day notice period to suspend
cancellation, consequently, the purchase agreements
were deemed cancelled by law at the end of the
notice period. The earnest monies therefore became
the “sole property” of Developers under Minn. Stat. §
559.217, subd. 7(a), as “the party completing the
cancellation of the purchase agreement.” Because
the purchase agreements were cancelled, appellants’
claims arising from the purchase agreements were
extinguished. See Olson, 148 N.W. at 69 (holding
that statutory termination precluded any recovery in
an action arising out of the contract because
statutory termination terminates the contract itself).
This included appellants’ claim against Developers
for negligent misrepresentation. See West, 231
N.W.2d at 827 (stating that after cancellation of a
contract for deed, the vendee cannot bring an action
for fraudulent misrepresentation on the contract
against the vendor).
Characterizing their letters of March 13, April 6
and 16, 2009, as statutory notices of cancellation,
appellants argue that the district court erred by
dismissing their claims because the court failed to
“consider Streambend II’s and VIII’s statutory
Notices of Cancellation.” In other words, appellants
contend that their letters requesting the return of
their earnest money constituted notices of
cancellation to Ivy Tower under Minn. Stat. §
559.217, subd. 2. But appellants did not specifically
make this argument to the district court, and the
court did not treat appellants’ letters as statutory

15a
notices of cancellation. Appellants’ argument that
their letters constitute statutory notices of
cancellation therefore is not properly before us.5 See
Thiele v. Stich, 425 N.W.2d 580, 582 (Minn. 1988)
(stating that appellate courts generally do not
consider issues that were not presented to and
decided by the district court). Moreover, even if the
subject letters statutorily cancelled the purchase
agreements, appellants’ claims against Developers
are precluded by the Olson rule. See Olson, 148 N.W.
at 69 (holding that statutory termination precluded
any recovery in action arising out of contract because
statutory termination terminates contract).
We acknowledge that the statutory cancellation
process is “one of the harshest forfeitures known to
American law,” but it is “enforced routinely in
Minnesota.” 25 Eileen M. Roberts, Minnesota
Practice § 6:16 (2018-2019 ed. 2018). And although
Olson suggested that a cancelled purchaser may
maintain a fraud action for “money had and
received,” for rescission, 148 N.W. at 69, Minnesota
courts have “[w]ith one exception, . . . managed to
avoid finding a situation that justifies application of
the exception,” 25 Minnesota Practice § 6:21. The
only decision allowing postcancellation rescission
based upon fraud involved a “widow with no
business training or experience and unfamiliar with
We note that appellants raised this issue in their request
for reconsideration under Minn. R. Gen. Prac. 115.11. But the
comment to rule 115.11 states that “[m]otions for
reconsideration will not be allowed to expand or supplement the
record on appeal.” Minn. R. Gen. Prac. 115.11 1997 comm. cmt.
(internal quotation marks omitted). Therefore, raising the issue
in the request for reconsideration does not preserve the
argument for appeal.
5

16a
real estate values,” who had traded her home to a
real-estate broker as a down payment. Gable v. Niles
Holding Co., 296 N.W. 525, 526 (Minn. 1941). The
supreme court determined that the case was “not
like” Olson, and allowed the case to proceed as an
unjust- enrichment claim. Id. at 527–28.
As Minnesota Practice recognized, Gable “cried
for equity, not law, and the [supreme] court
responded.” 25 Minnesota Practice § 6:21. In
contrast, this case does not cry out for equity. Unlike
the widow in Gable, Hammann admits that he is a
licensed real- estate broker who has extensive
business training and experience and is clearly very
familiar with real-estate value. The unjustenrichment exception to the Olson rule discussed in
Gable is therefore not applicable here, and all of
appellants’ claims against Developers are precluded
by the Olson rule. See Nowicki v. Benson Props., 402
N.W.2d 205, 206–08 (Minn. App. 1987) (holding that
district court properly granted summary judgment,
dismissing plaintiff’s claims for breach-of-contract,
fraudulent misrepresentation, and rescission,
following cancellation of a purchase agreement,
because all of plaintiff’s claims depend “on the
existence of a contract” and “[i]t is longstanding law
in Minnesota that once statutory notice has been
served and cancellation effected, all rights under a
contract for deed are terminated”).
Moreover, we conclude that even if appellants’
unjust-enrichment claim against Developers was not
precluded by the Olson rule, the complaint fails to
state a claim for unjust enrichment upon which
relief can be granted. To establish an unjustenrichment claim, the claimant must show that the

17a
defendant has knowingly received or obtained
something of value for which the defendant “in
equity and good conscience” should pay. Klass v.
Twin City Fed. Sav. & Loan Ass’n, 190 N.W.2d 493,
494–95 (Minn. 1971). “Unjust enrichment claims do
not lie simply because one party benefits from the
efforts or obligations of others, but instead it must be
shown that a party was unjustly enriched in the
sense that the term unjustly could mean illegally or
unlawfully.” ServiceMaster of St. Cloud v. GAB Bus.
Servs., Inc., 544 N.W.2d 302, 306 (Minn. 1996)
(quotation omitted). “It is well settled in Minnesota
that one may not seek a remedy in equity when
there is an adequate remedy at law.” Southtown
Plumbing, Inc. v. Har-Ned Lumber Co., 493 N.W.2d
137, 140 (Minn. App. 1992); see U.S. Fire Ins. Co. v.
Minn. State Zoological Bd., 307 N.W.2d 490, 497
(Minn. 1981) (stating that if equitable relief were
granted, statutory restrictions would be
circumvented).
Appellants argue that the district court erred by
dismissing their unjust-enrichment claim because
Developers’ use of the escrow money was both
“unlawful and immoral.” We disagree. The court
aptly found that appellants “had an adequate
remedy at law: seek a 15-day suspension of the
declaratory cancellation under Minn. Stat. §
559.217, subd. 4(c).” Because appellants had an
adequate remedy available at law, which they failed
to pursue, appellants’ unjust-enrichment claim fails.
We conclude that the court did not err by dismissing
appellants’ claims against Developers under rule
12.02(e).

18a
Finally, although our above analysis
demonstrates that the district court properly
dismissed appellants’ claims against all Developers
under rule 12.02(e), we also note that the court
properly dismissed appellants’ claims against
Wischermann as barred by res judicata. The doctrine
of res judicata seeks to avoid wasteful litigation so
“that a party may not be twice vexed for the same
cause.” Breaker v. Bemidji State Univ., 899 N.W.2d
515, 518–19 (Minn. App. 2017) (quotation omitted).
Res judicata bars a subsequent claim if: (1) the
earlier claim involved the same set of factual
circumstances; (2) the earlier claim involved the
same parties; (3) there was a final judgment on the
merits; and (4) the estopped party had a full and fair
opportunity to litigate the matter. Rucker v.
Schmidt, 794 N.W.2d 114, 117 (Minn. 2011). Res
judicata applies to claims actually litigated and to
claims that could have been litigated in the prior
action. Brown-Wilbert, Inc. v. Copeland Buhl & Co.,
P.L.L.P., 732 N.W.2d 209, 220 (Minn. 2007). Res
judicata should not be rigidly applied. Hauschildt v.
Beckingham, 686 N.W.2d 829, 837 (Minn. 2004).
Instead, the court should consider whether applying
the doctrine against a party would work an injustice.
Id.
Here, the district court determined that
appellants’ claims against Wischermann were barred
by res judicata because the Eighth Circuit Court of
Appeals affirmed the decision of the federal district
court that denied as “futile” appellants’ request to
add the Wischermann respondents as defendants.
See Streambend Props., 781 F.3d at 1015 (affirming
federal district court’s denial to add Wischermann as
defendants because appellants “have not adequately

19a
pleaded any theory under which [the Wischermann
respondents] could be liable” (quotation omitted)).
We agree that all of the elements of res judicata are
satisfied. Both claims clearly involve the same set of
facts and circumstances, and both cases involve the
same parties. Moreover, judgment on the matter was
final, as the Eighth Circuit affirmed the federal
district court’s denial of the request to add
Wischermann as defendants. And appellants clearly
have had full and fair opportunity to litigate the
matter. Under these circumstances, we conclude that
the court properly determined that appellants’
claims against Wischermann are barred by res
judicata. See Breaker, 899 N.W.2d at 518–19
(stating that doctrine of res judicata seeks to avoid
wasteful litigation so “that a party may not be twice
vexed for the same cause”).
B. Claims against Commonwealth
Appellants also brought several claims against
Commonwealth, including for (1) violation of the
MCIOA; (2) declaratory judgment; (3) conversion; (4)
violation of Minn. Stat. § 82.75; (5) negligent
misrepresentation; and (6) breach of fiduciary duty.
Appellants contend that the district court erred by
dismissing these claims under rule 12.02(e). We
disagree.
1. MCIOA claims
MCIOA “is based upon the Uniform Common
Interest Ownership Act (UCIOA) (1982) and codifies
the rights of a homeowners’ association in a common
interest community to bring causes of action against
the declarant for engineering and construction

20a
defects.” 650 N. Main Ass’n v. Frauenshuh, Inc., 885
N.W.2d 478, 486–87 (Minn. App. 2016), review
denied (Minn. Nov. 23, 2016). In dismissing
appellants’ MCIOA claims against Commonwealth,
the district court determined that Commonwealth
had “no duty to [appellants] under the MCIOA”
because Commonwealth “is not an affiliate of the
declarant” and there “was no contract between
Commonwealth and [appellants].”
Appellants argue that the district court’s
determination is erroneous because, as a title agent,
Commonwealth owed a duty to appellants under
Minn. Stat. § 515B.4-109. But that statute provides:
All earnest money paid or deposits made
in connection with the purchase or
reservation of units from or with a declarant
shall be deposited in an escrow account
controlled jointly by the declarant and the
purchaser, or controlled by a licensed title
insurer or agent thereof, . . . [and] held in the
escrow account until . . . delivered for
payment of construction costs pursuant to a
written agreement between the declarant
and the purchaser.
Minn. Stat. § 515B.4-109 (2018). As
Commonwealth points out, the only duty of the title
agent under that statute “is to comply with the
terms of a written agreement.”
Here, the written agreement between appellants
and the declarant, Ivy Tower, which was attached as
Exhibit C to appellants’ complaint, specifically
states:

21a
In consideration of Seller’s Agreement on
this day to sell a certain Unit in Ivy
Residence to Buyer, together with a Parking
Easement in the parking ramp to be
constructed beneath the Condominium
building, in order to lower Seller’s costs of
financing the construction of the project, and
as permitted by Minnesota Statutes §
515B.4-109, Buyer agrees that, upon request
by Seller, all earnest money previously paid
shall be released to Seller and used for the
payment of construction costs.
The plain language of Exhibit C specifically
allows Commonwealth to release escrow money for
construction costs upon the Seller’s request. There is
no additional step requiring appellants to agree to
release the funds. If appellants wanted such an
additional step, they should have included it in the
written agreement. And the written agreement
between appellants and Ivy Tower that allows
escrow money to be released for construction costs
upon Ivy Tower’s request is consistent with Minn.
Stat. § 515B.4-109, which allows a seller to use funds
for construction costs as long as there is a written
agreement between the parties.
Appellants argue that the language in Exhibit C
is “reasonably susceptible to more than one
interpretation,” and that its “more natural
interpretation” is that “upon request by Seller to
Buyer,” all earnest money previously paid shall be
released to Seller for construction costs. But we will
not read such a requirement into a contract when
the language, on its face, does not contain such an
obligation. See Telex Corp. v. Data Prods. Corp., 135

22a
N.W.2d 681, 686–87 (Minn. 1965) (stating that
“where the written language of an instrument
applied to the subject is clear, whether it be a
statute, constitution, or contract, it is neither
necessary nor proper in construing it to go beyond
the wording of the instrument itself”). Appellants’
argument here reads into the contract language that
does not appear on the face of Exhibit C. Moreover,
such a requirement that Sellers obtain permission
from the Buyers to use earnest monies for
construction costs is unnecessary based on the plain
language of the instrument itself. Exhibit C
specifically states that “[i]n consideration of Seller’s
agreement . . . Buyer agrees.” To add another step
that Seller first request from Buyer to use earnest
monies for construction costs ignores the plain
language of the agreement that Buyer has already
agreed to the use of earnest monies for construction
costs. Thus, appellants’ argument that Exhibit C is
ambiguous is without merit.
Appellants further contend that Commonwealth
violated the MCIOA because Commonwealth had a
duty to act in good faith, which included notifying
appellants that monies would be removed and later
that they had been removed from the escrow
account.
To support their claim, appellants cite Minn.
Stat. § 515B.1-113 (2018), which provides that
“[e]very contract or duty governed by this chapter
imposes an obligation of good faith in its
performance or enforcement.” But as the district
court found, Minn. Stat. § 515B.1- 113 does not
apply because there was no contract between
appellants and Commonwealth. Moreover, based

23a
upon Exhibit C, the only duty imposed upon
Commonwealth was to release the escrow monies for
construction costs upon the request of Ivy Tower.
The court therefore properly dismissed appellants’
MCIOA claims against Commonwealth.
2. Declaratory-judgment claim
Appellants sought an unspecified declaratory
judgment against Commonwealth under Minnesota
Statutes chapter 555, which permits “[a]ny person . .
. whose rights, status, or other legal relations are
affected by a statute” to “have determined any
question of construction or validity arising under the
. . . statute . . . and obtain a declaration of rights,
status, or other legal relations thereunder.” Minn.
Stat. § 555.02 (2018). But a court does not have
jurisdiction over a declaratory-judgment claim
unless there is a justiciable controversy, which exists
if the claim “(1) involves definite and concrete
assertions of right that emanate from a legal source,
(2) involves a genuine conflict in tangible interests
between parties with adverse interests, and (3) is
capable of specific resolution by judgment rather
than presenting hypothetical facts that would form
an advisory opinion.” Onvoy, Inc. v. ALLETE, Inc.,
736 N.W.2d 611, 617–18 (Minn. 2007).
Here, the district court determined that “a party
seeking a declaratory judgment must have an
independent, underlying cause of action based on a
common law or statutory right,” but that “[b]ecause
the court has dismissed with prejudice all of
[appellant]s’ claims in this case, no such underlying
cause of action exists, and [appellant]s’ claim for
declaratory judgment is dismissed as well.” Because

24a
the court properly dismissed appellants’ underlying
causes of action, it did not err by dismissing
appellants’ declaratory- judgment claim.
3. Conversion claim
Appellants also challenge the dismissal of their
conversion claim. Conversion is “an act of willful
interference with the personal property of another,
done, without lawful justification, by which any
person entitled thereto is deprived of use and
possession.” Christensen v. Milbank Ins. Co., 658
N.W.2d 580, 585 (Minn. 2003) (quotation marks
omitted). Recently, this court provided a thorough
analysis about whether money, in its intangible
form, constitutes property for conversion purposes.
TCI Bus. Capital Inc. v. Five Star Am. Die Casting,
LLC, 890 N.W.2d 423, 428–30 (Minn. App. 2017).
This court reasoned that “the premise that money in
an intangible form is property . . . is without
precedent in Minnesota law.” Id. at 428. A
conversion claim “is viable with respect to money
only if the money is in a tangible form (such as a
particular roll of coins or a particular stack of bills)
and is kept separate from other money.” Id. at 429.
Here, appellants’ complaint alleges that their
earnest money and upgrade deposits were
intermingled in the Commonwealth trust account
with earnest money and upgrade deposits for
“various parties pursuant to purchase agreements
for units” in the Ivy Hotel and Tower Development.
Because this case involves only money in an
intangible form, appellants’ claim fails as a matter of
law under TCI. The district court therefore did not
err by dismissing appellants’ conversion claim.

25a
4. Claim under Minn. Stat. § 82.75 (2018)
In Count VII of their complaint, appellants allege
violations of Minn. Stat. § 82.75, but the statute does
not create a private cause of action. Semrad v. Edina
Realty, Inc., 493 N.W.2d 528, 532 (Minn. 1992).
Although the legislature was aware of the method by
which it could create a private right of action, section
82.75 only grants enforcement powers to the
commissioner of commerce. Id. Moreover, the
penalty provision of the statute makes a violation a
gross misdemeanor but contains no reference to civil
liability. Minn. Stat. § 82.83 (2018). Instead, any
civil actions contemplated by the statute are limited
to claims made by licensed brokers seeking
compensation and unpaid commissions. Minn. Stat.
§ 82.85 (2018). The district court dismissed
appellants’ claim under Minn. Stat. § 82.75 because
the statute does not create a private cause of action
and because appellants’ complaint does not assert
claims under Minn. Stat. § 82.85. Appellants present
no argument explaining how or why the court’s
decision is erroneous. Accordingly, we conclude that
the court did not err by dismissing appellants’ claim
under Minn. Stat. § 82.75.
5. Negligent-misrepresentation claim
Appellants also challenge the district court’s
dismissal of their negligent- misrepresentation claim
against Commonwealth. To establish negligent
misrepresentation, a plaintiff must demonstrate that
a duty of care existed, the defendant supplied false
information to the plaintiff, the plaintiff justifiably
relied on the information, and the defendant failed to
exercise reasonable care in communicating the

26a
information. Williams v. Smith, 820 N.W.2d 807, 815
(Minn. 2012).
Here, as the district court determined, appellants
are unable to establish a duty owed to them by
Commonwealth. As discussed above, MCIOA does
not apply to Commonwealth because Commonwealth
and appellants had no contract. And, as discussed
above, Minn. Stat. § 82.75 is not available to support
a private cause of action. Finally, appellants fail to
establish a common-law duty owed to them by
Commonwealth. The district court therefore did not
err by dismissing appellants’ negligentmisrepresentation claim against Commonwealth.
See M.H. v. Caritas Family Servs., 488 N.W.2d 282,
288– 89 (Minn. 1992) (stating that omission is
actionable as negligent misrepresentation, but such
a claim is actionable only if a duty to disclose exists);
see also Smith v. Woodwind Homes, Inc., 605
N.W.2d 418, 424 (Minn. App. 2000) (stating that
“[a]n essential element of negligent
misrepresentation is that the alleged misrepresenter
owes a duty of care to the person to whom they are
providing information”).
6. Breach-of-fiduciary-duty claim
Appellants also challenge the dismissal of their
breach-of-fiduciary-duty claim against
Commonwealth. To prevail on such a claim,
appellants must prove four elements: duty, breach,
causation, and damages. TCI Bus. Capital, Inc., 890
N.W.2d at 434. But, as we concluded above,
Commonwealth owed no duty to appellants, and they
cite no published Minnesota caselaw supporting a
contrary conclusion. Accordingly, appellants are

27a
unable to establish that the district court erred by
dismissing their breach-of-fiduciary- duty claim
against Commonwealth.
III. Constitutional right to a jury trial
“The right of trial by jury shall remain inviolate,
and shall extend to all cases without regard to the
amount in controversy.” Minn. Const. art. 1, § 4. The
right to a trial by jury is accommodated by the rules
of civil procedure, which provide, “[i]n actions for the
recovery of money only, or of specific real property or
personal property, the issues of fact shall be tried by
a jury, unless a jury trial is waived . . . .” Minn. R.
Civ. P. 38.01. “This rule defines the scope of the right
to a jury trial in Minnesota, but it does not enlarge
or diminish the historical right to a jury trial
guaranteed by the Minnesota Constitution.” Olson v.
Synergistic Techs. Bus. Sys., Inc., 628 N.W.2d 142,
153 (Minn. 2001).
Appellants argue that by granting respondents’
motions to dismiss, the district court denied them
their constitutional right to have a jury decide the
case on the merits. To support their claim,
appellants argue at length that jury trials are the
foundation of this nation’s constitution, and they cite
statistics showing that jury trials in civil cases are
sparse. But none of appellants’ assertions
demonstrates that the district court improperly
denied them their right to a jury trial. To the
contrary, by dismissing appellants’ claims under rule
12.02(e), the court did not violate appellants’ right to
a jury trial because appellants’ no longer had
pending claims on which a jury could make findings.
See Onvoy, Inc., 736 N.W.2d at 617 (stating that

28a
constitutional jury-trial right in civil suit protects
jury’s findings—and right to make findings—on all
facts material to legal claim).
IV. Alleged violations of due process and
equal protection
Appellants argue that the district court denied
them their constitutional right to due process and
equal protection. But appellants fail to establish how
the court denied their due-process or equalprotection rights. Moreover, the court did not
consider these issues, and appellate courts generally
do not consider issues that were not presented to and
decided by the district court. Thiele, 425 N.W.2d at
582. Appellants’ due-process and equal- protection
claims therefore are not properly before this court.
Affirmed; motion denied.

29a

APPENDIX C
State of Minnesota
County of Hennepin

District Court
Fourth Judicial District

Streambend Properties II, LLC, Streambend
Properties VIII, LLC and Jerald Hammann,
Plaintiffs,
vs.
Ivy Tower Minneapolis, LLC, Ivy Tower
Development, LLC, Moody Group, LLC, Goben
Enterprises, LP, Wischermann Holdings, LLC,
Wischermann Partners, Inc., Jeffrey Laux, Gary
Benson, Paul Wischermann, and Commonwealth
Land Title Insurance Company, LLC,
Defendants.
Court File No. 27-CV-17-18938
ORDER GRANTING DEFENDANTS’ MOTIONS
TO DISMISS
The above-captioned matter came duly on before
the Honorable Joseph R. Klein on February 18, 2018
in District Court, Division I, Hennepin County
Government Center, Minneapolis, Minnesota. The
parties appeared for Defendants’ Motions to Dismiss.
Attorney Rachel Nelson appeared for and on behalf
of Plaintiffs. Attorney Thomas Pahl appeared for and

30a
on behalf of the Ivy Tower Defendants. Attorney
Kerry Trapp appeared for and on behalf of
Defendant Commonwealth Land Title Insurance
Company, LLC. Attorney Donald Macdonald
appeared for and on behalf of the Wischermann
Defendants. Based upon the evidence adduced, the
arguments of counsel, and all the files, records, and
proceedings herein, the court makes the following:
ORDER
1. The Motion to Dismiss brought by Defendant
Ivy Tower Minneapolis, Inc. and associated parties is
hereby GRANTED.
2. The Motion to Dismiss brought by Defendant
Wischermann Holdings, LLC and associated parties
is hereby GRANTED.
3. The Motion to Dismiss brought by Defendant
Commonwealth Land Title Insurance Company,
LLC is hereby GRANTED.
4. Plaintiffs’ claims in this matter are dismissed
with prejudice.
5. The attached memorandum of law is
incorporated herein.
Let Judgment Be Entered Accordingly.
BY THE COURT:
Dated: July 12, 2018 /s/ Joseph R. Klein
Joseph R. Klein

31a
Judge of District Court

FACTUAL BACKGROUND6
In October 2004, Plaintiffs Streambend
Properties II and Streambend Properties VIII
(owned by Plaintiff Jerald Hammann) each signed a
purchase agreement with Defendant Ivy Tower
Minneapolis for an Ivy Tower condominium.
Defendant Hammann signed an agreement on behalf
of Streambend II on October 23, 2004. Defendant’s
sister, Kristine Hammann, signed an agreement on
behalf of Streambend VIII on October 24, 2004.
Earnest money was deposited into a trust account
with Defendant Commonwealth. The articles of
organization for Streambend II and Streambend VIII
were filed on October 29, 2004 and November 2,
2004, respectively.
In April 2009, Defendant Ivy Tower Minneapolis
cancelled Plaintiffs’ purchase agreement by service
of two separate Notices of Declaratory Cancellation
pursuant to Minnesota Statutes § 559.217, subd. 4.
The Notices claimed that the purchasers
intentionally misrepresented terms of the purchase
agreement, never applied for financing, and never
intended to purchase the condo units. Accompanying
the notices was an affidavit of Patrick C. Smith
For the purposes of this motion, the court takes the facts
alleged in Plaintiff’s Complaint as true and relies on those
pleadings as well as attached exhibits for the factual background
of this motion. The court also takes judicial notice of previous
court decisions related to these parties and the circumstances
from which these claims arise.
6

32a
which outlined the alleged defaults and unfulfilled
conditions in more detail. The Notices provided that
unless the purchaser secured a court order that the
cancellation be suspended, then the cancellation
would be final at the end of the notice period. The
notice period was to last 15 days. The Notices stated
that once the notice period expired and the
cancellation was final, then pursuant to Minnesota
Statutes § 559.217, subd. 5, Plaintiffs would “lose all
earnest money...paid on the purchase agreement[s],”
and may “lose [the] right to assert any claims or
defenses that [Plaintiffs] might have.”
Plaintiffs did not seek a court order suspending
the cancellation during the notice period. In October
2010, Plaintiffs filed a federal lawsuit against Ivy
Tower Minneapolis, LLC among other defendants,
some of which are present in this case. Plaintiffs
sought the return of the earnest money they had
deposited and alleged claims for damages under the
Interstate Land Sales Full Disclosure Act (ILSA),
the Minnesota Common Interest Ownership Act
(MCIOA), and claims for fraud, declaratory
judgment, wrongful cancellation, breach of contract,
unjust enrichment, wrongful conversion of trust
account funds, negligent misrepresentation, and
breach of fiduciary duty. The District Court
dismissed the ILSA claim and declined to exercise
supplemental jurisdiction over the state law claims,
dismissing them without prejudice. Streambend
Properties II, LLC v. Ivy Tower Minneapolis, LLC,
No. CIV. 10-4257, 2011 WL 1447579, at *2 (D. Minn.
Apr. 14, 2011). Plaintiffs appealed the District
Court’s dismissal of the ILSA claim, and the decision
was reversed and remanded. On remand, Plaintiffs
filed a first and second amended complaint in 2012,

33a
and in doing so sought to add the Wischermann
parties to the law suit. The District Court ruled that
Plaintiffs’ proposed amendment to add Wischermann
Partners and Paul Wischermann was futile and
again dismissed the ILSA claim and declined
jurisdiction over the remaining state law claims.
This dismissal, including the denial of Plaintiffs’
motion to add Wischermann Partners and Paul
Wischermann, was affirmed by the Eighth Circuit
Court of Appeals. Streambend Properties II, LLC v.
Ivy Tower Minneapolis, LLC, 781 F.3d 1003, 1017
(8th Cir. 2015). Subsequent writs of certiorari to the
United States Supreme Court were also denied.
ANALYSIS
I. Standard of Review under Rule 12.02(e)
Defendants bring motions to dismiss all counts
against them for failure to state a claim under Rule
12.02(e) of the Minnesota Rules of Civil Procedure.
The focus of a motion to dismiss for failure to state a
claim is the adequacy of the pleadings. Group Health
Plan, Inc. v. Phillip Morris Incorporated, 621 N.W.
2d 2, 14 (Minn. 2001). In deciding whether
Defendants’ motions can be granted, the court must
limit itself to facts asserted in the pleadings and
attached to the Complaint, interpreted in a light
most favorable to Plaintiffs. Stephenson v. Plastics
Corp. of America, 150 N.W.2d 668, 671 (Minn. 1967).
The court must accept Plaintiffs’ allegations as true,
and the only question is whether the Complaint sets
forth a legally sufficient claim for relief. Marquette
Nat’l Bank of Mpls. V. Norris, 270 N.W.2d 290, 292
(Minn. 1978); Elzie v. Commissioner of Pub. Safety,
298 N.W.2d 29, 32 (Minn. 1980). The court must

34a
construe all reasonable inferences in favor of
Plaintiffs. In re Individual 35W Bridge Litig., 756
N.W.2d 890, 893 (Minn. Ct. App. 2010). The
Complaint will survive a motion to dismiss if it is
possible on any evidence that could be produced,
consistent with Plaintiffs’ theory, to grant the relief
demanded. See Walsh v. U.S. Bank, N.A., 851
N.W.2d 598, 603 (Minn. 2014). The motions to
dismiss will be granted only if it appears
unequivocally from the face of the Complaint and
attached exhibits that there is no legal basis for
asserting the claims. See Pederson v. American
Lutheran Church, 404 N.W.2d 887, 889 (Minn. Ct.
App. 1987). However, the court is not bound by legal
conclusions stated in the Complaint when
determining if the Complaint survives a motion to
dismiss. Finn v. Alliance Bank, 860 N.W.2d 638,
653-54 (Minn. 2015).
In this case, the Defendants’ motions to dismiss
are granted because, even when taking all the facts
in the Complaint as true, the claims in Counts I-X
are either barred by claim and issue preclusion, time
barred, or fail to state a claim upon which relief can
be granted. Additionally, in considering Defendants’
motion the court must consider the pleading
requirements of Minnesota Rule of Civil Procedure
9.02, which requires negligent misrepresentation to
be pleaded with particularity. With respect to the
heightened standards of Rule 9.02, pleading fraud
“with particularity” requires a party to plead facts
underlying each element of the fraud claim. Hardin
Cty. Sav. Bank v. Housing & Redevelopment Auth.
of the City of Brainerd, 821 N.W.2d 184, 191 (Minn.
2012). Plaintiffs have failed to meet this standard
with their Complaint.

35a
II. Plaintiffs’ Claims Against Wischermann
Partners, Inc. and Paul Wischermann Are
Barred by Res Judicata.
Plaintiffs brought the same claims they assert in
this case in a previous federal case in 2010. In 2012
and on remand, Plaintiffs filed a second amended
complaint in the federal case and sought to add
Wischermann Partners, Inc. and Paul Wischermann
to the lawsuit. In the amended complaint, Plaintiffs
named these two parties and asserted the same six
claims against them as they are now asserting in
this case. In response to this proposed amended
complaint, the federal District Court held that
Plaintiff had not set forth any factual allegations
that would warrant setting aside the legal
separation between Wischermann Holdings, LLC,
Wischermann Partners, Inc., and Paul
Wischermann. See Streambend Properties II, LLC v.
Ivy Tower Minneapolis, LLC, 7781 F.3d 1003, 1015
(8th Cir. 2015). The Court held that Plaintiffs had
not pleaded any theory that could hold Wischermann
Partners, Inc. or Paul Wischermann liable merely by
their association with Wischermann Holdings, LLC.
Finding that there were no allegations in the
proposed second amended complaint regarding these
two parties, and no argument to support their
addition as defendants, the District Court denied as
futile the motion to add Wischermann Partners, Inc.
and Paul Wischermann to the federal lawsuit. Id.
Res judicata bars relitigation of a claim where: 1)
the earlier claim involved the same set of factual
circumstances; 2) the earlier claim involved the same
parties or their privies; 3) there was a final judgment
on the merits; and 4) the estopped party had a full

36a
and fair opportunity to litigate the matter. Ashanti
v. City of Golden Valley, 666 F.3d 1148, 1151-52 (8th
Cir. 2012) (citing Hauschildt v. Beckingham, 686
N.W.2d 829, 840 (Minn. 2004). The federal District
Court’s denial of Plaintiffs’ motion to amend on the
grounds of futility was a final judgment on the
merits. King v. Hoover Group, Inc., 958 F.2d 219,
222–23 (8th Cir. 1992) (citing Carter v. Money Tree
Co., 532 F.2d 113, 115 (8th Cir. 1976)) (“It is well
settled that denial of leave to amend constitutes res
judicata on the merits of the claims which were
subject of the proposed amended pleading.”). The
parties were heard, the District Court denied leave
to amend on the ground that the proposed
amendment was futile, and the decision was
ultimately appealable because the case proceeded to
a judgment on the merits, and was in fact appealed
by Plaintiffs. On appeal, the Eighth Circuit affirmed
the District Court’s decision. Streambend Props. II v.
Ivy Tower Minneapolis, 781 F.3d at 1015 (“the
district court did not err in affirming Judge Boylan’s
denial of leave to amend.”). As a result, Plaintiffs’
claims against Wischermann Partners and Paul
Wischermann, already adjudicated once in the
federal lawsuit, are barred by res judicata.
Plaintiffs argue that the state law claims are the
subject of this case, and because those claims were
dismissed without prejudice in the federal lawsuit,
there is no claim preclusion.
However, while it is true that the state law
claims were not adjudicated on the merits in the
federal action, the issue of whether such claims
could be brought against Wischermann Partners,
Inc. and Paul Wischermann was disposed of on the

37a
merits. Dismissal without prejudice of the state law
claims against the other Defendants is separate and
apart from the District Court’s holding that
Plaintiffs’ motion to add Wischermann Partners, Inc.
and Paul Wischermann was futile. The latter
constituted a final judgment on the merits, and
therefore claim preclusion applies. The motion to
dismiss the claims against Wischermann Partners,
Inc. and Paul Wischermann is granted.
III. Plaintiffs’ Claims Against Wischermann
Partners, Inc. and Paul Wischermann Are
Barred by the Statute of Limitations.
An untimely claim must be dismissed under Rule
12.02(e). See Jacobson v. Board of Tr. of the
Teachers Ret. Ass’n, 627 N.W.2d 106, 109-113
(Minn. Ct. App. 2001) (affirming dismissal of claim
under Rule 12.02(e) as untimely). Plaintiffs’ claims
in this case are subject to, at most, a six-year statute
of limitations. Minn. Stat. § 541.05. The Complaint
is dated December 11, 2017. While it is unclear when
the Complaint was served, based on the date of the
Complaint, the earliest that timely claims could have
accrued is December 11, 2011. Plaintiff filed the
exact claims it asserts here in a federal action
commenced in October 2010. It follows that claims
brought in an October 2010 lawsuit accrued prior to
December 2011. It appears therefore that the claims
in this case are barred by the statute of limitations.
However, in their Complaint Plaintiffs assert
that the statute of limitations was tolled by the
earlier federal action in accordance with 28 U.S.
Code § 1367(d). Yet, these tolling arguments cannot
apply to Wischermann Partners, Inc. and Paul

38a
Wischermann because they were not named in the
federal lawsuit until June and July of 2012, and the
motion to add them at that time was denied.
Wischermann Partners, Inc. and Paul Wischermann
were never parties to the federal lawsuit; no action
against them was commenced until December 2017.
Therefore, there was no tolling of the statute of
limitations on claims asserted against these two
Defendants and the claims are also dismissed as
untimely.
IV. Plaintiffs’ Claims Against Wischermann
Holdings, LLC, Wischermann Partners, LLC,
and Paul Wischermann Are Barred by
Collateral Estoppel.
Collateral estoppel, or issue preclusion, arises
when: (1) the issues in prior and present
adjudications are identical; (2) there has been a final
adjudication on the merits; (3) the estopped party
was a party or was in privity with a party to the
prior adjudication; and (4) the estopped party has
been given a full and fair opportunity to be heard on
the adjudicated issue. See Haavisto v. Perpich, 520
N.W. 2d 727, 731 (Minn. 1994). A party may not
pursue defendants one after another on a discredited
claim, and argue that it is not bound by a prior
judgment solely because it is now suing a new party.
See Aufderhar v. Data Dispatch, Inc., 452 N.W.2d
648, 650 (Minn. 1990) (even though the defendant in
the proceeding was not a party to the earlier
proceeding, Minnesota law permits a defendant to
invoke collateral estoppel in subsequent litigation).
Plaintiff’s claims against all Wischermann
Defendants are barred by collateral estoppel because
purchase agreements signed by similarly situated

39a
Streambend entities have been ruled void in other
litigation pursued by Plaintiff Hammann.
In June 2006, Plaintiff Jerald Hammann, the sole
owner of the Streambend entities, brought an action
in state court to suspend the cancellation of
purchase agreements for two units in another
Minneapolis condominium development called
Sexton Lofts. Jerald Alan Hammann v. Sexton Lofts,
LLC, 27-CV-06-1224. Alleged in that case were the
same state law claims that Plaintiffs allege here:
unjust enrichment, fraud, misrepresentation, and
violation of the MCIOA. On November 26, 2007, the
state district court issued an Order declaring the
Sexton Lofts purchase agreements to be void as the
Streambend entities (in that case Streambend III
and IV) did not exist at the time they purportedly
signed the agreements. Similarly, in this case the
articles of organization for Streambend II and VIII
were not filed until October 29, 2004 and November
2, 2004, respectively. Yet, those entities purported to
enter into purchase agreements on October 23 and
24, 2004, before the entities were actually formed. In
the Sexton Lofts dispute, Plaintiff Hammann and
the Streambend entities commenced a subsequent
federal action, and the state court’s decision was the
grounds on which the claims were dismissed.
Streambend Properties III, LLC v. Sexton Lofts,
LLC, 2013 WL 673854 *8-9 (D. Minn., Jan. 28,
2013). The Eighth Circuit Court of Appeals later
affirmed that dismissal. Streambend Properties III,
LLC v. Sexton Lofts, LLC, 587 Fed.Appx. 350, 351
(8th Cir. 2014).
Here, just like the purchase agreements signed
by the Streambend entities in the Sexton Lofts

40a
matter, the purchase agreements were signed before
the entities were actually formed. The Sexton Lofts
court has already ruled that such purchase
agreements purportedly signed by unformed entities
are void, and collateral estoppel precludes Plaintiffs
from relitigating the same exact issue in front of this
court. The elements of issue preclusion are satisfied.
The issues in the prior and present adjudications are
identical in that both address whether Plaintiff
Hammann’s purchase agreements are void as a
result of being signed before the Streambend entities
were formed. There was a final adjudication on the
merits in which judgment was entered. The estopped
party (Plaintiff Hammann) was a party to the prior
adjudication. And finally, the estopped party was
given a full and fair opportunity to be heard on the
adjudicated issue. The federal District Court and
Eighth Circuit have already found that the state
court’s decision may be appropriately used as
collateral estoppel. Therefore, the court finds that
the purchase agreements in this case are void
because the Streambend entities did not exist at the
time they were purportedly executed. See also, Stone
v. Jetmar Properties, LLC, 733 N.W.2d 480, 485
(Minn. Ct. App. 2007) (holding that the de facto
corporation doctrine, which applies to limited
liability companies, “has been abolished in the
context of business corporation law.”). The process
for incorporating is so simple that it is not possible
for one to make a “colorable attempt” to incorporate
and fail. Id. “Articles of organization are effective
and limited liability company existence begins when
the articles of organization are filed with the
secretary of state.” Minn. Stat. § 322.B.175.
Accordingly, the claims against the Wischermann
Defendants are dismissed with prejudice.

41a
V. Plaintiffs’ Claims for Declaratory
Judgment and Breach of Contract Against Ivy
Tower Minneapolis Are Subject to Dismissal
Because the Purchase Agreements Are Void.
The claims for declaratory judgment and breach
of contract against the Ivy Tower Defendants are
subject to dismissal with prejudice under the same
issue preclusion analysis that applied to the
Wischermann Defendants. Because the Streambend
entities were not yet formed at the time the
purchase agreements were signed, the agreements
are void and unenforceable and any claims for
damages flowing from those agreements are without
merit.
Plaintiffs raise arguments based on adoption of
the contracts on a corporate promoter theory. They
claim that Streambend VIII adopted the purchase
agreement signed by Kristine Hammann who was a
promoter. However, the Complaint does not contain
facts showing that Kristine Hammann was a
promoter for Streambend VIII. A promoter can enter
a contract for the purpose of promoting and
organizing an unformed corporation and act on its
behalf, and the corporation (or LLC) can thereafter
adopt a contract entered into by the promoter. See
McArthur v. Times Printing Co., 48 Minn. 319, 319,
51 N.W. 216, 216 (1892). Promoter status of an
individual may exist where a promoter states her
intention to form a corporate entity for a specific
contract or project, commits time to the procurement
of the contract or project, and holds herself out as a
“point man” on the contract or project. See Kilstofte
Assocs., Inc. v. Wayzata Bayview Ltd. P'ship, No.
C2-93-856, 1994 WL 11254, at *2 (Minn. Ct. App.

42a
Jan. 18, 1994). Here, Ms. Hammann simply signed
the purchase agreement purportedly on behalf of the
nonexistent Streambend VIII. There is nothing in
the pleadings to indicate that she was a promoter for
the unformed entity. Thus, the Streambend VIII
could not adopt the contract and the purchase
agreement between Streambend VIII and Ivory
Tower Minneapolis is void.
Plaintiffs further claim that Streambend II
adopted the purchase agreement signed by
Defendant Hammann. While the Complaint does
allege facts that could establish Mr. Hammann as a
promoter, the Complaint demonstrates that
Streambend II did not adopt the purchase
agreement. Rather, it objected to it and demanded
return of its earnest money. There is no explicit
adoption by Streambend II of the purchase
agreement in the record. A purchase agreement may
be implicitly adopted when a corporation accepts the
benefits and pays on it without objection. See
Kilstofte, C2-93-856, 1994 WL 11254, at *2 (citing 3
Zolman Cavitch, Business Organizations § 56.02[2]
n. 10). Here, Streambend II did object to the
agreement and demanded the return of its earnest
money. Streambend VIII did the same. Thus, neither
organization “adopted” its respective purchase
agreement and the agreements are void because they
were signed prior to the formation of the entities.
Plaintiffs’ claims for breach of contract and
declaratory judgment are therefore dismissed with
prejudice.

43a
VI. Plaintiffs’ MCIOA Claims Fail Because
Plaintiffs Are Not “Purchasers.”
Plaintiffs’ claims under the MCIOA fail because
only purchasers may bring such a claim, and
Plaintiffs are not “purchasers” as defined by the
statute. The MCIOA defines “purchaser” as an
individual “other than a declarant, who by means of
voluntary transfer acquires legal or equitable
interest in a unit.” Minn. Stat. § 515B.1-103.
Streambend II and VIII are not “purchasers” as
defined by the Act because neither entity actually
made a “voluntary transfer [to acquire] a legal or
equitable interest in a unit.” As discussed above,
Streambend II and VIII did not exist at the time of
signing, thus each purchase agreement was void
before any such transaction occurred. This
determination was found to be true by federal courts
in virtually identical circumstances. See Streambend
Properties III, LLC v. Sexton Lofts, LLC, 2013 WL
673854, at *11 (D. Minn. Jan. 28, 2013), report and
recommendation adopted sub nom. Streambend
Properties III, LLC v. Sexton Lofts, LLC, No. CIV.
10-4745 MJD/SER, 2013 WL 674014 (D. Minn. Feb.
25, 2013), aff'd, 587 F. App'x 350 (8th Cir. 2014).
Again, Minnesota law does not recognize the de facto
corporation doctrine. To recognize business
transactions purportedly made before an LLC came
into existence would lead to “a form of future
interest to vest in unorganized entities and be
inconsistent with public policy.” Jetmar Props., 733
N.W.2d at 487. Plaintiffs’ claims under MCIOA are
based on their status as purchasers, and therefore
these claims are dismissed.

44a
VII. Plaintiffs’ Claims for Wrongful
Cancellation and Return of Earnest Money Fail
Because Plaintiffs Did not Avail Themselves of
the Statutory and Contractual Remedies
During the Notice Period.
Plaintiffs’ claims for wrongful cancellation and
request for return of earnest money fail because
Plaintiffs did not seek a suspension of the
cancellation within the notice period provided by
both the statute and the Notice of Cancellation
issued by Ivy Tower Minneapolis. Plaintiffs argue
that the purchase agreements were wrongfully
cancelled because Defendant Ivy Tower did not
identify any default or unfulfilled condition which
cancelled the agreements. Such identification of
unfulfilled conditions and defaults in a notice of
cancellation is required by § 559.217, subd. 4(a)(2).
See Dimke v. Farr, 802 N.W.2d 860, 863 (Minn. Ct.
App. 2011). In this case, the Notices of Cancellation
that were attached to the Complaint as exhibits do
identify multiple defaults and unfulfilled conditions.
These include never intending to reside in the
property in violation of Purchase Agreement section
17, intentionally causing damage to seller by signing
several upgrade addendums in violation of Purchase
Agreement section 5, and never applying for
financing in violation of Purchase Agreement section
4(a).
More importantly, when Defendant Ivy Tower
noticed its intent to cancel the purchase agreement,
it triggered a statutory notice period of 15 days in
which Plaintiffs had the opportunity to seek an order
suspending the cancellation. “The cancellation of a
purchase agreement is complete, unless, within 15

45a
days after the service of the notice upon the other
party to the purchase agreement, the party upon
whom the notice was served secures from a court an
order suspending the cancellation.” § 559.217 subd.
4(c). Plaintiffs’ never sought such a suspension in
this case. After a “confirmation of cancellation under
subdivision 4, the purchase agreement is void and of
no further force or effect, and . . . any earnest money
held under the purchase agreement[s] must be
distributed to, and become the sole property of, the
party completing the cancellation of the purchase
agreement[s].” § 559.217 subd. 7(a). In the Sexton
Lofts case, the court ruled that the purchase
agreements were void but that the Streambend
entities were entitled to the return of their earnest
money. This case is distinguishable because unlike
in Sexton Lofts, Plaintiffs here never sought an
order suspending the cancellation of the purchase
agreements. As clearly stated in the statute and the
purchase agreements themselves, such failure
resulted in the loss of earnest money and the loss of
claims and defenses that Plaintiffs may have.
Therefore, Plaintiffs’ claims for wrongful
cancellation and return of earnest money are
dismissed.
VIII. Plaintiffs Fail to State a Claim for
Wrongful Conversion.
Plaintiffs’ claim for wrongful conversion fails as a
matter of law. “Because cash is liquid and designed
to be transferred, it is a subject of conversion only
when it is capable of being identified and described
in a specific chattel.” TCI Business Capital, Inc. v.
Five Star American Die Casting, LLC, 890 N.W.2d
423, 429 (Minn. Ct. App. 2017). Thus, a conversion

46a
claim is only viable with respect to money if the
money is in a tangible form and is kept separate
from other money. Id. “That understanding is
consistent with the traditional common-law rule that
an electronic financial transaction cannot be the
basis of a conversion claim.” Id. The Complaint
alleges that earnest monies were deposited in trust
accounts maintained by Commonwealth for various
parties pursuant to purchase agreements. Such
funds are not monies in a tangible form kept
separate from other money. The cases cited by
Plaintiffs in opposition to the aforementioned rule do
not specifically deal with the transfer of money in an
intangible form, and therefore do not refute TCI
Business Capital. These cases also predate TCI
Business Capital, and thus are not persuasive. See
World Bus. Lenders, LLC, Plaintiff, v. Joseph F.
Palen, & Robert Carlson, Defendants, 2017 WL
2560918, at *6 (D. Minn. June 13, 2017) citing TCI
Business Capital, 890 N.W.2d 423 (finding that the
Court of Appeals’ conclusions regarding intangible
money is good law, and stating “the court of appeals
went to great lengths to discuss this issue,
researching all of the Minnesota Supreme Court
cases on conversion and analyzing the two cases
concerning a conversion claim based on a transfer of
money in an intangible form.”). Plaintiffs’ fail to
state a claim for wrongful conversion and this claim
is dismissed.
Additionally, the claim for conversion of the funds
released from the escrow account on December 20,
2005 is time barred by the six-year statute of
limitations. The potential claim arose when the
funds were removed from the escrow account. See
Leisure Dynamics, Inc. v. Falstaff Brewing Corp.,

47a
298 N.W.2d 33, 37 (Minn. 1980) (holding that the
statute of limitations runs from the time an action
can be commenced). The statute of limitations was
tolled by the federal case brought by Plaintiffs on
October 15, 2010. At that point, approximately four
years and ten months had passed. The Eighth
Circuit’s opinion affirming dismissal of the federal
case was issued March 30, 2015. Adding 30 days on
to that date in accordance with 28 U.S. Code Section
1367(a) leaves a gap of approximately two years and
eight months before this state court action was
commenced. This gap is added to the time that
passed previously before tolling, giving a total of
approximately seven and a half years of applicable
time since the claim arose in December 20, 2005.
This exceeds the six-year statute of limitations, and
the claim for conversion is barred.
IX. Plaintiffs Fail to State a Claim for Unjust
Enrichment.
Plaintiffs have failed to state a claim for unjust
enrichment. “It is well settled in Minnesota that one
may not seek a remedy in equity when there is an
adequate remedy at law.” Southtown Plumbing, Inc.
v. Har-Ned Lumber Co., Inc., 493 N.W.2d 137, 140
(Minn. App. 1992) (affirming a directed verdict for
defendant that was not a party to the contract where
plaintiff had an adequate remedy at law to recover
damages). Here, Plaintiffs had an adequate remedy
at law: seek a 15 day suspension of the declaratory
cancellation under Minn. Stat. § 559.217 subd. 4(c).
However, plaintiffs failed to pursue this remedy. The
Complaint incorporates and attaches the very
contracts governing the relationship between
Plaintiffs and Defendants. Where there is a

48a
contractual relationship there can be no equitable
remedy such as unjust enrichment. The contracts
and statutory scheme provided the framework under
which Plaintiffs could bring their claims, but
Plaintiffs failed to do so in a manner that can
survive a motion to dismiss.
Moreover, to establish an unjust-enrichment
claim, a plaintiff must show: (1) a party has
knowingly received something of value; (2) the party
is not entitled to the benefit; and (3) it would be
unjust for the party to retain it. Id. “[U]njust
enrichment claims do not lie simply because one
party benefits from the efforts or obligations of
others, but instead it must be shown that a party
was unjustly enriched in the sense that the term
‘unjustly’ could mean illegally or unlawfully.”
ServiceMaster of St. Cloud v. GAB Bus. Servs., Inc.,
544 N.W.2d 302, 306 (Minn. 1996). Plaintiffs do not
plead any factual allegations that could raise an
inference of illegal or unlawful activity on the part of
Defendants. Rather, Plaintiffs explicitly allowed the
escrow funds to be used by the Sellers in connection
with construction. Thus, the unjust enrichment
claim is dismissed.
X. Plaintiffs Claim for Declaratory
Judgment Fails Because no Underlying Claim
Remains.
Plaintiffs’ claim for declaratory judgment under
Minnesota Statutes § 555.01 fails because a party
seeking declaratory judgment must have an
independent, underlying cause of action based on a
common law or statutory right. Because the court
has dismissed with prejudice all of Plaintiffs’ claim

49a
in this case, no such underlying cause of action
exists, and Plaintiffs’ claim for declaratory judgment
is dismissed as well.
XI. Plaintiffs’ Claim for Negligent
Misrepresentation Against Developers Is Not
Pleaded with Sufficient Particularity.
Plaintiffs also assert a claim against “developers”
for negligent misrepresentation. Under Minnesota
Law:
[A] person makes a negligent
misrepresentation when (1) in the course of
his or her business, profession, or
employment, or in a transaction in which he
or she has a pecuniary interest, (2) the
person supplies false information for the
guidance of others in their business
transactions, (3) another justifiably relies on
the information, and (4) the person making
the representation has failed to exercise
reasonable care in obtaining or
communicating the information.
Valspar Refinish, Inc. v. Gaylord’s, Inc., 764
N.W.2d 359, 369 (Minn. 2009). Any allegation of
negligent misrepresentation is considered an
allegation of fraud which a party must plead with
particularity. See Juster Steel Co. v. Carlson
Companies, 366 N.W.2d 616, 618-19 (Minn. App.
1985). In their Complaint, Plaintiffs allege only that
misrepresentations were made by “developers,”
without identifying which developers made the
misrepresentations or what specifically the
misrepresentations were. The Complaint makes a

50a
group allegation of negligent misrepresentation and
then repeats that allegation for each Defendant. In
effect, Plaintiffs simply allege that all developers
made all misrepresentations. Minnesota law
requires that these claims be pleaded with
particularity, and that the material facts underlying
each claim be specifically alleged. Parrish v. Peoples,
214 Minn. 589, 9 N.W.2d 225, 227 (Minn.1943). Such
material facts are not present here. The court notes
that Plaintiffs have previously faced dismissal for
failure to plead negligent misrepresentation with
sufficient particularity in prior cases related to this
transaction. See Streambend Props. II v. Ivy Tower
Minneapolis, LLC, 781 F.3d 1003, 1013 (8th Cir.
2015) (affirming dismissal of claims and finding that
Plaintiffs’ Complaint attributed fraudulent
misrepresentations and conduct to multiple
defendants generally, in a group pleading fashion).
Plaintiffs have failed to plead these claims in
accordance with Rule 9.02, and therefore the claims
for negligent misrepresentation are dismissed.
XII. Plaintiffs’ MCIOA Claims Against
Commonwealth Fail Because Commonwealth
The court’s previous holding that Plaintiffs’
MCIOA claims fail because Plaintiffs are not
purchasers also applies to Plaintiffs’ MCIOA claims
against Defendant Commonwealth. Additionally, the
court will address Plaintiffs’ MICOA claims as they
apply specifically to Defendant Commonwealth.
Under the MCIOA, “all earnest money paid or
deposits made in connection with the purchase or
reservation of units from or with a declarant shall be
deposited in an escrow account controlled jointly by

51a
the declarant and the purchaser, or controlled by a
licensed title insurance company or agent thereof.”
Minn. Stat. § 515B.3-109. This imposes a duty on the
declarant to deposit the funds with the title agent.
The title agent must then hold the deposit in the
escrow account until it is “delivered for payment of
construction costs pursuant to written agreement
between the declarant and the purchaser.” Id. at (iv).
In this case, the purchase agreement between
Defendant Ivy Tower Minneapolis and Plaintiffs is
the earnest money agreement which expressly
authorized Commonwealth to deliver the escrow
deposits for construction costs. Thus, any claims by
Plaintiff that Defendant Commonwealth violated the
MCIOA by removing earnest monies without a
written agreement is meritless. The purchase
agreements provide at Exhibit C-1:
In consideration of Seller’s Agreement on this day
to sell a certain Unit in Ivy Residence to Buyer,
together with a Parking Easement in the parking
ramp to be constructed beneath the Condominium
building, in order to lower Seller’s costs of financing
the construction of the project, and as permitted by
Minnesota Statutes § 515B.4-109, Buyer agrees that
upon request by Seller, all earnest money previously
paid shall be released to Seller and used for the
payment of construction costs.
Upon request by seller, the funds are to be
released. In other words, upon Ivy Tower’s request to
the title agent, the funds are to be released for
construction costs. This is consistent with the
MCIOA in that the statute allows a seller to use
funds for construction costs as long as there is an

52a
agreement. Minn. Stat. § 515B.4-109. Plaintiffs’
argument that this language requires a seller to
obtain a separate writing for each and every
disbursement of escrow funds from each and every
unit purchaser is not reasonable and not consistent
with the plain language of the agreement and the
statute.
Plaintiffs also argue that Defendant
Commonwealth owed a duty to Plaintiffs to notify
them that funds would be removed from the escrow
account, as well as when such funds had been
removed. To support this assertion, Plaintiffs rely on
Minnesota Statutes § 515B.1-113 which provides
that every contract or duty governed by the MCIOA
imposes an obligation of good faith in its
performance or enforcement. It is unclear how this
section applies to Commonwealth however, since
there are no facts alleged that establish a contract
between Plaintiffs and Commonwealth. The primary
persons subject to the statutory requirements are
the “Declarant,” which the statute mandates must be
identified in the recorded declarations, and any
“Affiliate of a Declarant” who is defined as a person
who controls the declarant, or is under the control of
the declarant. Minn. Stat. § 515B.1-103(2) and (15).
A person controls the declarant if the person is a
general partner or officer of the declarant, holds
substantial voting interest in declarant, controls the
election of a majority of the declarant’s directors, or
has contributed more than 20 percent of declarant’s
capital. Id. at (2)(A). A person is controlled by a
declarant if the reverse is true and the declarant
holds a position relative to the person (or entity)
with the power and authority previously mentioned.
Id. at (2)(B). Defendant Commonwealth was not a

53a
declarant as it was not identified as a declarant in
the recorded declarations pursuant to the statute.
Additionally, Commonwealth neither controlled a
declarant nor was controlled by a declarant.
Therefore, under the statue, Commonwealth is not
an affiliate of the declarant. There was no contract
between Commonwealth and Plaintiffs, and
Commonwealth had no duty to Plaintiffs under the
MCIOA. Accordingly, Plaintiffs’ claim against
Commonwealth under the MCIOA fails for this
reason as well as the reasons indicated above.
XIII. Plaintiffs Fail to State a Claim for
Wrongful Conversion Against Commonwealth.
The court’s above analysis concerning wrongful
conversion applies to the claim against
Commonwealth as well. Additionally, the court will
address the claim as it is specifically made against
Commonwealth. Plaintiffs’ assert claims against
Defendant Commonwealth for wrongful conversion
of trust account funds. To constitute conversion,
there must be an exercise of dominion over the good
which is inconsistent with and in repudiation of the
owner’s rights to the goods or some act done which
destroys or changes their character or deprives the
owner of possession permanently or for an indefinite
length of time. See Hildegarde, Inc. v. Wright, 244
Minn. 410, 413, 70 N.W.2d 257, 259 (1955).
Conversion must involve an interference with the
plaintiff’s right to control his property. Inland
Construction Corp. v. Continental Casualty Co., 258
N.W.2d 881, 884 (Minn. 1977). “Any distinct act of
dominion wrongfully exerted over one’s property, in
denial of his right, or inconsistent with it, is a
conversion.” McDonald v. Bayha, 100 N.W. 679, 680

54a
(1904). In this case, Plaintiffs purported to execute
purchase agreements that included an “Earnest
Money Agreement” approving the Seller’s right to
use those funds for the costs of construction. This
agreement authorized Defendant Commonwealth to
disburse earnest money deposits for construction
expenses. There are no facts alleged that show
Defendant Commonwealth wrongfully exerted
dominion over Plaintiffs’ funds.
XIV. No Private Cause of Action is Available
to Plaintiffs Under Minn. Stat. § 82.75.
Plaintiffs’ claim under Minnesota Statutes §
82.75 fails because there is no private cause of action
provided for within Chapter 82. See Semrad v. Edina
Realty, Inc., 493 N.W.2d 528, 532 (Minn. 1992). The
chapter expressly grants enforcement powers to the
commissioner of commerce and state prosecutors,
with violation of the statute constituting a gross
misdemeanor. Id.; Minn. Stat. 82.82; Minn. Stat.
82.83. The regulatory scheme precludes actions by
those not licensed as real estate brokers. See Minn.
Stat. § 82.85. Any civil actions contemplated by the
act are limited to claims made by licensed brokers
seeking compensation and unpaid commissions. Id.
Such facts are not alleged here. Plaintiffs’ claim
against Defendant Commonwealth under Section
82.75 is therefore dismissed.
XV. Plaintiffs Fail to State a Claim for
Negligent Misrepresentation Against
Commonwealth.
In Counts IX and X, Plaintiffs bring separate
claims against Defendant Commonwealth for

55a
negligent misrepresentation and breach of fiduciary
duty. Plaintiffs do not allege any express false
statements, rather they claim a failure to disclose
information which they claim was statutorily
required to be disclosed under ILSA, Minnesota
Statutes Chapter 515B, or Minnesota Statutes §
82.75. The ILSA claim was disposed of with
prejudice in the federal action and will not be
considered here. Further, as discussed above,
Defendant Commonwealth role as a title insurance
company is not within the scope of Chapter 515B,
and Section 82.75 is not available to Plaintiffs to
support a private cause of action. “An essential
element of negligent misrepresentation is that the
alleged misrepresenter owes a duty of care to the
person to whom they are providing information.”
Smith v. Woodwind Homes, Inc., 605 N.W.2d 418,
424 (Minn. App. 2000) (citation omitted). In the
absence of a legal duty to disclose facts, the negligent
misrepresentation claim against Commonwealth
fails. Similarly, Plaintiffs’ claim for breach of
fiduciary duty also fails as there is no applicable
duty identified. “A defendant will not be bound to
conform its conduct to a standard of care unless a
legally recognized duty exists.” Rasmussen v.
Prudential Ins. Co., 277 Minn. 266, 268–69, 152
N.W.2d 359, 362 (1967); ServiceMaster of St. Cloud
v. GAB Bus. Services, Inc., 544 N.W.2d 302, 307
(Minn. 1996). Here, Defendant Commonwealth was
required to hold and disburse earnest money
pursuant to the purchase agreement. Plaintiffs’
arguments regarding how a hypothetical “impartial
third party” would act are unpersuasive. Similarly,
Plaintiffs’ unsupported assertions that
“Commonwealth clearly assumed a duty of care” are
unavailing. The claims for negligent

56a
misrepresentation and breach of fiduciary duty are
dismissed.
Finally, to the extent that Plaintiffs are alleging
negligent misrepresentation based on express false
statements, they fail to plead such a claim with the
particularity required by the Rules. See Minn. R.
Civ. P. 9.02. Claims of express fraud or
misrepresentation require a party to state with
particularity the circumstances constituting fraud or
mistake. Here, the Complaint does not identify any
person or entity within Commonwealth who made an
allegedly false statement. Nor does it identify the
actual statement or statements that were allegedly
false. Therefore, the claims for negligent
misrepresentation are dismissed with prejudice.
JRK

